LEGAL SERVICES CORPORATION

         BOARD OF DIRECTORS’
 SEMIANNUAL REPORT TO THE CONGRESS


    _________________________________________


      Decisions, Final Actions, and Comments
       on the Office of Inspector General’s
        Semiannual Report to the Congress
                   ____________

        April 1, 1997 - September 30, 1997

    __________________________________________




                                                November 26, 1997
                                     FOREWORD


      I am pleased to transmit the report of the Legal Services Corporation ("LSC" or
"Corporation") regarding the Semiannual Report of LSC's Office of Inspector General
("OIG") for the six-month period of April 1, 1997 through September 30, 1997.

      The Corporation’s Board of Directors ("Board") recognizes the value of the Inspector
General function and remains committed to working with the Inspector General to achieve
our goal of providing high quality legal assistance to the poor of our nation.




                                                Douglas S. Eakeley, Chairman
                                                Legal Services Corporation

November 26, 1997
                                        TABLE OF CONTENTS


Message of the Board of Directors                   ................ .................. ....
1

Background        ..........................................................
3

      The Legal Services Corporation                     ............................... ......
3
      Grant-Making Activities                 ...........................................
3

Management Initiatives                  . . . . . .............. .. ........................

.4    Competition . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 4

      Compliance Monitoring and Enforcement. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
5

      Regulatory Review                 ..............................................
. 6

      Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
6

      Strategic Planning . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
7

      Other Matters . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
8

Program Integrity           ....................................................
10
      Status of Findings and Recommendations . . . . . . . . .                       ....................
10
      Inspection of Alternative Work Arrangements . . . . . . . . . . . . . . . . . . . . . . . . . 10
      Corporation’s Annual Financial Statement Audit . . . . . . . . . . . . . . . . . . . . . . . . .
10
      Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
11

TABLE 1: Management Report on OIG Audit Reports of Grantees Issued with
      Questioned Costs for the Six-Month Period Ending September 30, 1997 . . . . . . . . 12
TABLE 2: Management Report on Audit Reports Issued During
      the Six-Month Period Ending September 30, 1997, With
      Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . 13
                  MESSAGE OF THE BOARD OF DIRECTORS

       The beginning of this reporting period marked the passage of one year since the
enactment, as part of LSC's fiscal year 1996 appropriation, of major changes in the legal
services delivery system and in the programmatic operations of the Corporation. During that
period, LSC grantees modified their operations to comply with a variety of new restrictions
placed upon their activities. Meanwhile, the Corporation proceeded with its implementation
of a competition-based process for awarding grants and a new system for compliance
monitoring and enforcement.

        The Inspector General's Report indicates that the Corporation and its grantees have
risen to the challenge and accomplished the results that Congress sought. The results of the
first year's reports under the new system for compliance monitoring demonstrate that
grantees have overwhelmingly brought themselves into compliance with the new restrictions.
Recipient audits completed during the reporting period for 216 programs resulted in only
three findings of noncompliance, each of which has been addressed to correct the deficiency.
Moreover, the special compliance audits conducted by the OIG are nearly complete. While
these targeted audits have generated more findings, the number and nature of the
recommendations are not unusual, particularly in light of the extensive new program
requirements. These results confirm that the Corporation is providing effective oversight of
its grantees, and that the program is operating as Congress intended.

       In addition, as we report more fully below, the system for competition for grants is
now fully operational. The processing of competitive grant proposals for calendar year 1998
funding was improved through the effective use of a new electronic filing procedure. The
Corporation anticipates that its streamlined grants review and evaluation process will assure
timely grant awards later this year.

        The Board is extremely gratified by the performance of the Corporation's staff during
this period, doing a difficult job with increasingly limited resources, and doing it well, in a
responsible and highly professional manner. We are equally grateful to the staffs of LSC
grantees, who continued to go about the business of representing people in need with energy
and commitment, despite diminished resources and significant changes in the rules under
which they must operate.

        With this period of transition behind us, the Corporation can turn its attention to the
future. During this reporting period we initiated a strategic planning process to guide our
activities through fiscal year 2003. The programmatic portion of our proposed Strategic Plan
places a major emphasis on expanding the services available to clients and enhancing the

                                              1
quality of the services that are provided. Through better use of information technology and
new methods of delivering services, and through expanded partnerships with the private bar
and other service providers, we hope to build upon current strengths, and increase the
numbers of clients served by grantees despite diminished resources.

       Leading the Corporation in these initiatives will be its new President, John McKay,
who replaced Martha Bergmark during May of this year. A Seattle attorney in private
practice who has long been active in pro bono work and support for legal services in his
native Washington, John McKay embodies the principles of bi-partisanship and public-
private partnership which contribute to the unique strength and effectiveness of the legal
services delivery system.




                                            2
                                        BACKGROUND

The Legal Services Corporation

       The Corporation is a private, non-profit corporation established in the District of
Columbia by the Legal Services Corporation Act of 1974, as amended ("the LSC Act"),1 to
provide financial support for legal assistance in non-criminal proceedings to persons unable
to afford legal services. Under the LSC Act, the Corporation is governed by an eleven-
member bi-partisan Board of Directors appointed by the President of the United States, with
the advice and consent of the Senate. The Board appoints the President of the Corporation,
who serves as the Corporation's chief executive officer, subject to general policies
established by the Board.

       The 1988 Amendments to the Inspector General Act of 1978 required LSC to establish
an Office of Inspector General (“OIG”) and extended specific provisions of the 1978 Act to
LSC. Accordingly, such an office was established by and for the Corporation. The Inspector
General is appointed by, reports to and serves under the general supervision of the
Corporation's Board of Directors.

Grant-Making Activities

        To carry out the purposes of the LSC Act, Congress appropriated to the Corporation
$283 million for fiscal year 1997 (Pub. L. 104-208), $274.4 million of which the Corporation
is using to fund 267 legal services programs to provide legal assistance to indigent persons
throughout the 50 states, the District of Columbia, Puerto Rico, the U.S. Virgin Islands,
Guam and Micronesia.




       1
           42 U.S.C. §§ 2996 - 2996l.

                                             3
                            MANAGEMENT INITIATIVES
        During the reporting period, the Corporation substantially completed the remaining
grant award decisions for the 1997 calendar year. Additionally, proposals and grant renewal
applications were solicited and received for calendar year 1998 grants for the delivery of
legal services to eligible clients. The Corporation also began its active involvement in the
new compliance monitoring system, receiving and assuring appropriate action in response
to the first recommendations from the OIG and the Independent Public Accountants (“IPAs”)
on findings from recipient audits. The Corporation also substantially completed its strategic
planning process and continued to pursue its technology initiatives as available resources
permitted.

Competition
       The 1997 competitive grants award process was substantially completed during the
reporting period. Funding decisions in two service areas are pending. These applicants were
placed on short funding to permit LSC to engage in a more extensive review and evaluation
due to program delivery issues that have potential compliance implications. Final funding
decisions for both of these service areas are expected in the near future. All other grant
awards were completed for the 1997 calendar year.

        In the previous reporting period, the Corporation engaged in and completed an
assessment of the 1997 competitive grants process and made revisions where needed, to
improve both the mechanics and the substantive content of the process. Constant evaluation
of the competitive grants process is required as legal services delivery is a dynamic process
in which change and innovation are constantly underway.

       During this reporting period, the Corporation solicited proposals and grant renewal
applications for 346 service areas for calendar year 1998 funding.2 One of the new
improvements to the grants process this year was an electronic filing procedure for the
Notice of Intent to Compete and two other Request for Proposal (“RFP”) forms. Using this
new Internet application, all but one applicant submitting full proposals in the competitive

        2
                 It should be noted that several recipients are awarded funding to provide legal services
in more than one service area; for example, a single recipient may receive both basic field and migrant
farmworker funding. With its 1997 competitive grant process, the Cor poration instituted a multi-year
funding policy which resulted in applicants receiving one, two, or three year grants, based on certain
criteria. Thus, for 1998, competitive proposals were solicited for slightly more than one-third of the
service areas, the majority of which will be eligible for three year grants. Grant renewal applications
were submitted for the other two-thirds of the service areas.

                                                   4
grants process successfully submitted these forms. Based on the positive response from the
applicants and the benefits to LSC staff in having the information immediately accessible for
the review process, the Corporation expects to expand the use of electronic filing to other
segments of the competitive grants process during the next funding cycle. For now, the
Corporation is engaged in the grants review and evaluation process and it is expected that
the grant awards process will be completed during the next reporting period.

       As noted in the previous reporting period, the competitive grants process captures a
tremendous amount of information about legal services delivery nationwide. The
Corporation continues to work directly with applicants and recipients to achieve
improvements in delivery systems by: 1) setting high quality standards in the RFP; 2) using
these quality standards to evaluate proposals; 3) assisting in the identification of weaknesses
and/or inefficiencies through the competitive grants review evaluation process; 4) sharing
information on innovations and best practices; 5) where necessary, requiring recipients to
undertake specifically identified program improvement efforts within established time
frames; and 6) making the decision not to fund those applicants that fail to demonstrate the
capacity to provide quality legal services to eligible clients. Corporation staff continue to
balance the responsibility of implementing a competitive grants process with the ongoing
responsibility to provide guidance to current recipients.

Compliance Monitoring and Enforcement
        The Corporation is gratified that the new system for compliance monitoring found
substantial compliance with Congressional restrictions.            Only three findings of
noncompliance with the new program requirements were identified. The Audit Information
Management System (“AIMS”), developed by the OIG to track findings of grantee annual
audits, provided rapid referral of findings to management, thereby assuring a quick response
and resolution of those findings and recommendations referred. Management has followed
up on all audit findings referred by the OIG during the reporting period, all of which have
either been resolved or are being addressed by a Corrective Action Plan.

         Regarding the Grantee Compliance Audits conducted by the OIG, management is
currently reviewing the four recommendations which were addressed to the Corporation for
its action. In addition, Corporation management will review the actions of the recipients in
response to the various recommendations addressed to them. We look forward to the
issuance of the final consolidated report and any additional recommendations to further
strengthen our capacity to assure full compliance with Congressional restrictions by our
grantees.

Regulatory Review

                                              5
        During this period, the last of 15 regulations were published as final, bringing to a
close an effort begun in 1996 to promulgate new or revised regulations to implement new
restrictions and requirements in Public laws 104-134 and 104-208. Also published during
this period were 2 proposed rules: one to revise the Corporation’s rule on costs standards and
procedures and the other to implement provisions of the Assisted Suicide Funding Restriction
Act of 1997 that are applicable to LSC funds. Finally, the Corporation finalized its
Accounting Guide for LSC Recipients and made technical revisions to its regulations on the
Freedom of Information Act.

       The Corporation anticipates a full rulemaking schedule in 1998 to update old rules or
policies and to implement applicable changes in law, such as the 1996 amendments to the
Freedom of Information Act and the new provisions included in the Corporation’s FY 1998
appropriations.

       The OIG worked closely with the Board and Corporation’s staff on all these
regulatory efforts.

Technology
       The Board remains committed to technological improvements to enhance the delivery
of services by its grantees in such areas as intake systems, case management, legal work
production, legal research, exchange of information, and program management. Although
we are disappointed that the Corporation will not receive the $12 million it requested in its
FY 1998 Budget Request for various technology initiatives, we have made significant
progress in this area during the reporting period.

        The Corporation has continued to develop and implement its Grantee Information
Management System (“GIMS”), which, when completed, will use current technology to
enhance the ability of grantees and applicants quickly and easily to provide information
required by the Corporation. In turn, the Corporation will be able to provide timely
information about the grantees and their activities to Congress and the public in general.
During the solicitation process for calendar year 1998 grants, all but one applicant was able
to file the Notice of Intent to Compete and two other required forms through the Internet.
By continuing to expand its capabilities in this area, the Corporation expects to achieve
further economies and efficiencies in its competitive grant award process.

       In addition, the Corporation moved into the next phase of information system
development to enhance its internal accounting and human resources capabilities. This phase
calls for the implementation of accounting, purchasing, inventory, and human resources

                                              6
software to automate critical functions in these administrative areas. Through technology,
the Corporation will continue to function effectively and economically, despite its limited
staffing and financial resources.

       As an adjunct to these efforts, LSC has substantially upgraded its presence on the
Internet by improving its World Wide Web home page. The home page now provides useful
information to all visitors in a one-stop-shopping mode, including the Corporation’s mission
and internal organization, a listing of its grantees, and the status of various Corporation
and/or grantee activities.

       Also during the reporting period, LSC co-sponsored a successful national conference
entitled “Innovations & Ethical Considerations in Hotlines, Technology and Pro Se
Delivery.” The conference highlighted the ways that programs and other providers of legal
services are making effective use of technology and new delivery systems, e.g., hotlines, to
improve services to clients. More than 300 persons attended the conference, representing
almost half of all LSC grantees.

Strategic Planning
       The Government Performance and Results Act (“GPRA,” or “the Results Act”)
requires government agencies to develop multi-year strategic plans, and to submit annual
performance plans with their budget requests, along with a report on the previous year’s
performance results in terms of that year’s plan.

       Although the Legal Services Corporation is not a federal agency, and thus not subject
to GPRA, it has elected to follow a planning process based upon GPRA, to bring its budget
processes into conformity with those of federal agencies and, more importantly, to promote
sound management and effective realization of the Corporation's mission.

        During the reporting period, LSC initiated its strategic planning process, which
culminated in the development of a draft Strategic Plan for FY 1998-FY 2003, covering the
activities of both the Corporation’s management and administration and its Office of
Inspector General. The planning process involved all LSC staff and the LSC Board of
Directors, with comments solicited from grantees, clients, other entities involved in the
provision of legal services, Congress and the Administration. The OIG provided helpful
advice and comment to the Corporation’s management as it developed the programmatic
portion of the proposed Plan.

      As provided for by GPRA, LSC's proposed Strategic Plan sets forth: a statement of
LSC's mission; LSC's general goals for the period; how LSC plans to achieve those goals;

                                             7
key external factors which could significantly affect LSC's achievement of its goals; how
LSC's general goals and objectives will be translated into more specific, objectively
expressed performance goals for each year in an Annual Performance Plan, and how LSC's
performance will be evaluated. The OIG drafted a separate section of the proposed Plan,
devoted to the special mission, goals and strategies of the Office of Inspector General.

      The proposed Plan will be considered by the LSC Board at its November, 1997
meeting.

Other Matters
        On July 29, 1997, the Senate approved the Commerce, Justice, State, the Judiciary and
Related Agencies FY 98 appropriations bill, which included a funding level of $300 million
for the Legal Services Corporation. The full House approved a $250 million funding level
on September 25, 1997. A final Commerce, Justice, State appropriations bill for FY 98 was
enacted by the House and Senate on November 13, 1997, which included an appropriation
of $283 million for LSC.

       The Inspector General, under the heading “Legislative and Regulatory Review,”
reports one instance which he characterizes as a refusal of access to requested documents.
From the Corporation’s perspective, the question is not the statutory right of access to
Corporation documents necessary to carry out the OIG’s fact-finding duties, but rather the
more complex issue of whether such access to documents, which are otherwise protected
by the attorney-client privilege, results in a waiver of that privilege as to all other third
parties.

        The instant dispute centers on three litigation reports which, according to the
Inspector General’s report, were requested solely as part of “the general oversight of LSC
activities.” The litigation reports are prepared and presented by the General Counsel at
closed sessions of the meetings of the Corporation’s Board of Directors. The reports
summarize for the Board significant, active litigation involving the Corporation, including
the parties and their counsel, the legal issues presented, the costs incurred, and the status of
the proceeding. In some cases, the General Counsel reports on litigation and/or settlement
positions and strategies, or other information protected by the attorney-client privilege. The
Inspector General has always had available a version of the litigation report which contains
all the factual information on the cases, and, indeed has direct access to this information,
including the costs of the representation by outside counsel, if any, and to the complete
filings made in every case, through the files in the General Counsel’s office. The Board has
not been made aware of any general oversight or fact-finding function of the Inspector



                                               8
General that could not be fully and adequately performed based on the availability of this
information.

        More importantly, the Board is concerned that, by mischaracterizing the issue as one
of access, the Inspector General is seeking a result that will aggravate rather than resolve the
core issue of waiver of the Corporation’s attorney-client privilege. The Inspector General
has from time to time acknowledged that the Board’s concern with the waiver of its attorney-
client privilege is a legitimate one. It is the Corporation’s view that disclosure of privileged
information to third parties, including its own employees that have no essential role with
respect to the legal advice that is being sought or given, could effectively waive the attorney-
client privilege as to all other third parties. While the Inspector General indicates his
disagreement with this view of the law, he has failed, despite opportunities to do so, to
provide any legal authority for his assertion that no waiver occurs, assuming arguendo that
disclosure of the information is statutorily compelled. The statutory language recommended
by the Inspector General fails to address this central issue of waiver. Thus, far from
eliminating the problem facing the Board and its Inspector General, the proposal could have
the unintended consequence of jeopardizing the Corporation’s exercise of its attorney-client
privilege with further uncertainty.

        Corporation management has proposed a compromise that both addresses access to
privileged information by the Inspector General and the OIG staff, and fully preserves the
Corporation’s attorney-client privilege as to other third parties. The Inspector General has,
without further comment or explanation, found this compromise to be unacceptable.
Nonetheless, the Board believes that the question of waiver of the Corporation’s attorney-
client privilege is an issue best resolved directly by the Board and its Inspector General, and
that a change in the statute is neither necessary nor appropriate at this time.




                                               9
                            PROGRAM INTEGRITY

Status of Findings and Recommendations
       The Board is pleased that the Inspector General’s Report for this period reflects no
pattern of noncompliance among the grantees or any significant compliance findings.

       As noted above, management has taken action to ensure compliance with all reported
audit findings referred by the OIG from the annual recipient audits completed during the
reporting period. Two of the three referred findings have been resolved, and the third is
being actively addressed in the Corrective Action Plan for one grantee.

       Regarding the Grantee Compliance Audits conducted by the OIG, management is
currently reviewing the four recommendations contained in the final reports that are
addressed to the Corporation, as well as the actions taken or planned by the grantees in
response to the twelve recommendations addressed to them. We await the issuance of the
OIG’s remaining compliance audits and its final consolidated report for any additional
recommendations.

Inspection of Alternative Work Arrangements
        During the reporting period, Corporation management cooperated with the OIG in its
Inspection of Alternative Work Arrangements, which focused on implementation of the
Corporation’s alternative work schedule policies for the period March 8, 1997 to June 30,
1997. The draft report was received on October 23, 1997, and management promptly
responded. The draft report recommendations were generally consistent with those
developed by management through its own on-going internal review of personnel procedures.
Implementation of the recommendations is currently under way and should be completed
prior to the issuance of the final report.

Corporation’s Annual Financial Statement Audit
       Corporation management has also been cooperating with the OIG in its annual
financial statement audit which began during this reporting period. The Corporation looks
forward to receiving and reporting on the Inspector General’s final report during the next
period.


Investigations
                                            10
      Corporation management continues to work with the landlord’s office of Tenant
Services and the Federal Protective Services Agency to complete work on a new Safety
Awareness Program. The recommendation regarding the use of Corporation ID badges will
be addressed in that report.




                                         11
                                                TABLE 1

                                 Management Report on
                    Office of Inspector General Audits of Grantees
                             Issued With Questioned Costs
                 For the Six-Month Period Ending September 30, 1997


                                                 Number of        Questioned        Unsupported
                                                  Reports            Costs             Costs

A. Audit Reports for grantees on which no
   management decision had been made by the
   commencement of the reporting period.           0                 $   0              $0

B. Audit Reports issued during the reporting
   period.                                         0                 $0                 $0


   Subtotals (A + B)                               0                $0                  $0


MINUS:

C. Audit Reports for which a management
   decision was made during the reporting
   period:.                                        0                $0                  $0

        (i) dollar value of recommendations
            that were agreed to by management      0                 $0                 $0

        (ii) dollar value of recommendations
             that were not agreed to by
            management                             0                 $0                 $0


D. Audit Reports for which no management
   decision had been made by the end of
   the reporting period.                           0                 $0                 $0

    Audit Reports for which no management
    decision had been made within six months
    of issuance.                            0                $0                $0



                                                   12
                                             TABLE 2

            Management Report on Audit Reports Issued During
              the Six-Month Period Ending September 30, 1997
           With Recommendations That Funds Be Put to Better Use


                                                              Number of        Dollar
                                                               Reports         Value

A.   Audit Reports for which no management
     decision has been made by the commencement
     of the reporting period.                                   0               $0

B.   Audit Reports issued during the reporting period.    0               $0

     Subtotals (A + B)                                          0               $0


MINUS:

C.   Audit Reports for which a management decision
     was made during the reporting period:                      0               $0

     (i) dollar value of recommendations that were
         agreed to by management                                0               $0

     (ii) dollar value of recommendations that were not
          agreed to by management                               0               $0

D.   Audit Reports for which no management decision
     had been made by the end of the reporting period.    0               $0

     Audit Reports for which no management decision
     had been made within six months of issuance.               0               $0




                                                  13
